WAIVE
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Timothy C. Harry,. etal. _

19-142
_v.

American-Brokers-Conduit,-et a
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested

by the Court.
Please check the appropriate boxes:

Ei Please enter my appearance as Counsel of Record for all respondents.
0 There are ,. multiple respondents, And :I-'do not represent all; •respondents' Pie* enter my
appearance as Counsel of Record for the following respondent(s):
Fidelity National Title Group, Inc., Fidelity National Financial, Inc., Fidelity Nationalrifle Company

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

August 7, 2019

(Type or print) Name

Fred 0. Goldberg
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Berger Singerman LLP

Address

1450 Brickell Avenue, Suite 1900

City & State

Phone

Miami, FL

305-755-9500

Email

Zip 33131
fgoldberg@bergersingerman.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM.' NO ADDITIONAL CERTIFICATE OF SERVICE IS .REQUIRED.

CC: Tina L. Sherwood, Samuel C. Bodurtha, Marissa I. Delinks, Maura . fill,,tekca

IVED

AUG 15 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

